OIG Audit Report GR-40-01-005
Office of Community Oriented Policing Services Grants 
to Hinds County, Mississippi, Sheriff's Office
Audit Report GR-40-01-005
April 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of hiring grants awarded by the Office of Community Oriented Policing Services (COPS) to the Hinds County, Mississippi, Sheriff's Office (grantee).  The purpose of the grants was to enhance community policing. COPS awarded the grantee $326,827 to hire five full-time officers.  The grantee has hired all five of these officers.  Federal funding for the last of these five officers was scheduled to end on   September 30, 2000, when the 3-year funding period concluded.  Based on our analysis of actual costs chargeable to this grant through September 30, 2000, we determined that $6,083 of the grant would not be spent.  Accordingly, we recommend that $6,083 be deobligated and put to better use. 1
We found the grantee to be substantially in compliance with COPS's grant requirements.  We reviewed the grantee's compliance with seven essential grant conditions, and found the grantee's budgeting for officers, hiring of officers, local matching funds, reimbursement requests, and retention of officer positions at the conclusion of the grant to be acceptable.  However, we found weaknesses in the following two areas.  

The grantee had not implemented all the community policing activities discussed in the initial grant application.  Specifically, the grantee had not developed a strategic plan for community policing, established neighborhood sub-stations, used computer systems to collect and analyze information, or established citizen advisory groups.

	The grantee submitted several program and financial reports late or not at all.

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I. 




Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of funds to better use.